                                                    SENSITIVE BUT UNCLASSIFIED



                                              United States Department of State
                                           and the Broadcasting Board of Governors
                                                  Office of Inspector General
Office of Inspector General

                                                 Office of Inspections

                              Inspection of Embassy Singapore, Singapore

                                             Report Number ISP-I-12-36A, June 2012




                                                                Important Notice

                              This report is intended solely for the official use of the Department of State or the
                              Broadcasting Board of Governors, or any agency or organization receiving a copy
                              directly from the Office of Inspector General. No secondary distribution may be made,
                              in whole or in part, outside the Department of State or the Broadcasting Board of
                              Governors, by them or by other agencies of organizations, without prior authorization
                              by the Inspector General. Public availability of the document will be determined by the
                              Inspector General under the U.S. Code, 5 U.S.C. 552. Improper disclosure of this report
                              may result in criminal, civil, or administrative penalties.




                                                    SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


                    PURPOSE, SCOPE, AND METHODOLOGY
                           OF THE INSPECTION

        This inspection was conducted in accordance with the Quality Standards for Inspection
and Evaluation, as issued in 2011 by the Council of Inspectors General on Integrity and
Efficiency, and the Inspector’s Handbook, as issued by the Office of Inspector General (OIG) for
the U.S. Department of State (Department) and the Broadcasting Board of Governors (BBG).

PURPOSE AND SCOPE

       The Office of Inspections provides the Secretary of State, the Chairman of the BBG, and
Congress with systematic and independent evaluations of the operations of the Department and
the BBG. Inspections cover three broad areas, consistent with Section 209 of the Foreign Service
Act of 1980:

       •   Policy Implementation: whether policy goals and objectives are being effectively
           achieved; whether U.S. interests are being accurately and effectively represented; and
           whether all elements of an office or mission are being adequately coordinated.

       •   Resource Management: whether resources are being used and managed with
           maximum efficiency, effectiveness, and economy and whether financial transactions
           and accounts are properly conducted, maintained, and reported.

       •   Management Controls: whether the administration of activities and operations meets
           the requirements of applicable laws and regulations; whether internal management
           controls have been instituted to ensure quality of performance and reduce the
           likelihood of mismanagement; whether instance of fraud, waste, or abuse exist; and
           whether adequate steps for detection, correction, and prevention have been taken.

METHODOLOGY

In conducting this inspection, the inspectors: reviewed pertinent records; as appropriate, circulated,
reviewed, and compiled the results of survey instruments; conducted on-site interviews; and
reviewed the substance of the report and its findings and recommendations with offices,
individuals, organizations, and activities affected by this review.




                                           i
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED




                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General




                                           ii
                              SENSITIVE BUT UNCLASSIFIED
                            SENSITIVE BUT UNCLASSIFIED


                                 Table of Contents
Key Judgments                                                    1
Context                                                          2
Executive Direction                                              3
  Management of the Embassy                                      4
  Attention to Public Diplomacy                                  5
  Mentoring of Entry-Level Professionals                         5
Policy and Program Implementation                                6
  Economic and Political Section                                 6
  Public Diplomacy                                               9
  Consular Affairs                                              12
Resource Management                                             16
  Management Section                                            17
  Human Resources                                               18
  Financial Management                                          18
  Innovative Practice: Inventory Optimization and Forecasting   21
  Innovative Practice: Automated Utilities Usage Emailer        21
  Facilities Management                                         23
  Regional Support to Embassy Bandar Seri Begawan               23
  Equal Employment Opportunity                                  24
  Information Management                                        25
Quality of Life                                                 26
  Schools                                                       26
  Community Liaison Office                                      26
  Medical Unit                                                  26
Management Controls                                             28
  Management Section                                            28
List of Formal Recommendations                                  29
List of Informal Recommendations                                31
Principal Officials                                             32
Abbreviations                                                   33




                                        iii
                            SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Key Judgments
   •   The Ambassador and deputy chief of mission (DCM) have the respect and confidence of
       a motivated and productive staff. The Ambassador’s emphasis on teamwork and
       inclusiveness inspires a country team notable for excellent collaboration.

   •   The embassy’s 3-year strategic plan serves as an effective blueprint to focus and direct
       activities across the entire mission.

   •   Promoting U.S. economic growth through commercial diplomacy is the Ambassador’s
       highest priority. With U.S. exports to Singapore showing a 41 percent increase since
       2009, the embassy is on target to meet the President’s National Export Initiative target of
       doubling U.S. exports by 2015.

   •   The embassy-proposed Strategic Partnership Dialogue just initiated in Washington will
       institutionalize regular high-level consultations between the United States and Singapore
       and broaden areas for discussion and cooperation.

   •   The new public affairs officer’s strategic refocus of the section has resulted in a greater
       emphasis on media outreach and a robust embassy participation in public diplomacy.

   •   The consular section is dealing competently with its workload but has internal leadership
       issues that the front office must address. The section is experiencing serious problems
       with its faltering computer equipment, which is more than a year overdue for replacement
       by the Bureau of Consular Affairs.

   •   The management section does an impressive job supporting a growing mission with 19
       agencies. The general services office has developed innovative practices that save money
       and promote efficiency.

All findings and recommendations in this report are based on conditions observed during the on-
site review and the standards and policies then in effect. The report does not comment at length
on areas where OIG did not identify problems that need to be corrected.

The inspection took place in Washington, DC, between January 3 and 27, 2012; and in Singapore
between March 1 and 20, 2012. (b) (6)




                                           1
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Context
        Singapore’s small size—274 square miles in area with 5.2 million people—belies its
importance. Capitalizing on its strategic location astride the Malacca Strait, through which about
one-third of the world’s seaborne cargo passes, Singapore’s trade-friendly policies have won it
World Bank recognition as the easiest place in the world to do business. Not surprisingly,
promoting a strong U.S. economy is the embassy’s top policy goal. Singapore is an engine for
regional economic development. It is the world’s busiest transshipment point, its fourth largest
financial center, and its third wealthiest country. U.S. exports of $31 billion in 2011 made the
island city-state its 11th largest export market. The $12.3 billion trade surplus the United States
had with Singapore is the 6th largest in the world. U.S. businesses directly invested $106 billion
in Singapore in 2010, a level surpassed in only 10 other countries. Singapore is the base for more
than 1,500 U.S. companies, a home for approximately 25,000 U.S. citizens, and a destination for
approximately 375,000 U.S. visitors annually.

        Singapore relies on a network of security, political, and economic relationships and
carefully balanced ties with all regional powers. A former British colony, it has been a strong
U.S. partner since its independence in 1965. The U.S.-Singapore relationship has been a key part
of U.S. engagement in Southeast Asia and the region. To deepen cooperation, the United States
and Singapore launched a Strategic Partnership Dialogue in February 2012. Singapore provides
increasingly important logistical support for U.S. military operations. Its leaders play a
significant role in the region, including in the Association of Southeast Asian Nations and Asia-
Pacific Economic Cooperation. Singaporean public opinion is generally pro-American. High-
priority embassy goals include strengthening ties with Singapore to maintain access to the global
commons, countering violent extremism, stopping the spread of weapons of mass destruction,
enhancing the U.S. reputation in the Asia-Pacific region, and ensuring the safe and secure
movement of people and goods. Promoting greater respect for democratic freedoms and the rule
of law is also an important goal. The government has broad powers to limit citizens’ rights and
handicap political opposition, but the political acceptance of dissent is slowly expanding, as
shown by the unprecedentedly open debate during the 2011 parliamentary and presidential
campaigns. The party in power since 1959, however, still won 81 out of the 87 parliamentary
seats, although it only mustered 60 percent of the popular vote.

         Embassy Singapore has 297 employees, including 56 U.S. direct-hire and 106 locally
employed (LE) staff positions for the Department of State (Department) and 96 U.S. direct-hire
and 39 LE staff positions for 18 other agencies, including the Departments of Agriculture,
Commerce, Defense, Homeland Security, Justice, Transportation, and Treasury. In addition,
several U.S. military commands, with approximately 200 personnel, operate out of leased
facilities in support of U.S. military activities in the Western Pacific. In FY 2011, funding for the
embassy was more than $23 million. The United States provided $250,000 of foreign assistance
to Singapore in FY 2011 under the Export Control and Related Border Security program.




                                           2
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Executive Direction
        Embassy Singapore is a well-led, well-managed post distinguished by a strong and
collegial team approach to pursuing mission goals. Shortly after his arrival in April 2010, the
noncareer appointee Ambassador initiated a missionwide exercise to analyze and reprioritize
embassy objectives, which he felt were inadequately laid out in the existing Mission Strategic
and Resource Plan. Extensive deliberations among the Department and the other 18 U.S.
Government agencies at post produced a concise and targeted 3-year strategic plan that is
regularly reviewed, updated, and briefed to employees. The Ambassador’s insistence that all
elements of the embassy act as a single team has stimulated effective networking, a shared sense
of purpose, and remarkable harmony in the community. His inclusive style has helped bridge
gaps between the entities at post with primarily bilateral responsibilities and those with a
regional purview; even the American employees who spend much of their time outside
Singapore demonstrate a firm grasp of the Ambassador’s objectives and expectations and feel
part of the embassy team. Morale is very good and the high level of satisfaction among most
employees is palpable.

         Under the Ambassador’s direction, the embassy has made material progress in its primary
goals of contributing to the U.S. economic recovery and strengthening the U.S.-Singapore
security relationship. Commerce is Singapore’s raison d’être; advocacy of U.S. business and
trade is the Ambassador’s main focus. A former business lawyer, he has worked aggressively
with U.S. producers and the local American business community to identify and develop trade
opportunities for American business in Singapore and its Southeast Asia neighborhood. U.S.
exports to Singapore surged 41 percent in 2 years, putting the embassy on course to meet the
President’s National Export Initiative goal of doubling U.S. exports to Singapore by 2015. The
Department recognized the embassy’s efforts with an Export Promotion Achievement Award in
the fall of 2011. Department policymakers describe the Ambassador’s regional approach to trade
promotion as “extremely innovative,” noting he led four delegations of the American Chamber
of Commerce in Singapore to India, Indonesia, and Vietnam to explore business opportunities,
and also conducted three export promotion outreach tours to 15 cities in the United States to alert
small- and medium-sized American exporters to the possibilities and rewards of doing business
in Asia. In Singapore, the embassy has also pressed forward on jobs diplomacy by facilitating an
impressive speaker’s program for companies and business groups in Singapore, including talks
by the Secretary of the Treasury and senior officials from the Office of the U.S. Trade
Representative. The embassy’s outreach to the local business community and business-related
institutions is thoughtfully designed and well executed.

        The highlight of recent embassy support for more developed bilateral security relations
was Singapore’s agreement to allow the forward deployment of U.S. littoral combat ships to this
strategic location. The embassy also encouraged and supported the visits of more than 120 U.S.
navy ships, 364 military aircraft, and 51 flag officers in 2011. The embassy was imaginative in
capitalizing on the visits to press U.S. policy messages. A recent visit by an aircraft carrier
group, for example, was used to give prospective Singaporean civil servants a demonstration in
gender equality in the U.S. military by bringing students aboard to meet senior female officers.
The level and frequency of contact between the Ambassador and the senior U.S. military official


                                           3
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

stationed at the Navy base, as well as the good relationship between other embassy and military
officials, ensures efficient coordination on such issues as visits and staffing.

        Just prior to the inspection, the Secretary of State and the Singapore Foreign Minister
launched the Strategic Partnership Dialogue in Washington, providing a forum for high-level
discussion. These assistant secretary-level annual discussions will extend beyond the core
bilateral issues of trade and security to include a full plate of U.S. interests, including law
enforcement, education, counterterrorism, and counterproliferation. The Strategic Partnership
Dialogue should make it easier to engage more directly and on a sustained basis with
Singaporean authorities on topics the Government of Singapore considers sensitive or of
secondary importance.

Management of the Embassy

       The embassy’s strategic plan lists teamwork as its number one internal goal, and the
Ambassador’s firm emphasis on collegiality and collaboration is evident throughout the mission.
Interagency coordination, both structured and informal, is excellent. Several senior agency
representatives commented that they have never served in an embassy where interaction among
sections and agencies is more productive or stress-free.

        The Ambassador chose as his DCM an officer with previous experience in a DCM
position, charging him to serve as the embassy’s chief operating officer while the Ambassador
concentrates on functioning as the chief executive officer. This division of labor works well
because of constant communication within the front office, and the rest of the mission regards
the executive officers as partners in purpose and outlook. Senior officials told the OIG team the
front office was exceptionally professional and easy to work for, and credited the DCM with just
the right touch—no micromanagement, good judgment, reliable follow-through—in
operationalizing the Ambassador’s vision. Agency heads with regional perspectives told
inspectors they considered the Ambassador one of the most effective and dynamic embassy
executives in the field. American staff surveyed by the OIG team gave the Ambassador very
good marks in leadership and management capabilities, reporting that vision, coordination, and
problem solving are his greatest strengths. “Inclusive” and “supportive” were the most common
descriptions the inspectors heard of the front office’s management style. The Ambassador is
considered unusually interested in and informed about the concerns, objectives, priorities, and
constraints of the agencies on the country team. The DCM is noted for his ability to keep the
various embassy elements working in tandem. He runs the embassy competently and efficiently
during the Ambassador’s absences.

        The DCM is a practitioner of management by walking about. He is seen every day in the
corridors and offices of the embassy, staying in touch with employees and engaging in informal
exchanges of information and opinion. A schedule of weekly country team, senior staff, and key
officer meetings provides for more structured interaction. The country team meetings allow for
information flow and face time with the front office. Each agency periodically briefs the country
team on its programs in Singapore and the region. The Ambassador uses smaller weekly senior
staff meetings to discuss issues, make plans, and build consensus. The DCM chairs useful and
productive monthly meetings of the law enforcement agencies represented in the embassy.
Outside of the regular meeting structure, employees report they feel welcome to approach the
                                           4
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

front office on their own with professional or personal issues; both the Ambassador and DCM
are viewed as accessible, genuinely interested, fair-minded, and open to alternative points of
view.

        The Ambassador and DCM go out of their way to initiate and support social activities
and events to pull the community together. It is rare for an event to take place without some front
office participation, and very often the Ambassador or DCM is in the lead. Embassy employees
have found they can take seriously front office invitations to use the two official residences for
representational or social events, stretching limited entertainment dollars in an expensive
country. The LE staff applauds the Ambassador for making a special point to remove distinctions
and barriers between them and the U.S. direct-hires. The LE staff’s elected board is pleased with
its regular meetings with the Ambassador and DCM and appreciates the front office’s strong
support for its morale-raising events. The embassy has an effective Equal Employment
Opportunity program headed by a trained American counselor.

Attention to Public Diplomacy

         The embassy’s media outreach takes place within the confines of Singapore’s tightly
controlled press environment. The local press does not adhere to American journalistic norms,
making interviews somewhat hazardous, and opinion pieces can be hard to place in the
newspapers. Despite occasional tensions with the media, the Ambassador holds quarterly
background sessions with 8-10 key journalists, and several of his editorial articles on U.S.-
Singapore relations have figured prominently in the local press. The Ambassador often speaks in
public and is at his best when making informal remarks. The DCM maintains a full schedule of
informal presentations on American culture to educational institutions and sports organizations.
The front office has led in-house campaigns to reach out to groups new to embassy engagement,
such as the young generation of rising political and economic figures who will eventually take
over for Singapore’s aging leaders. The front office’s strong encouragement to American officers
of all ranks to engage in public diplomacy efforts is commendable.

Mentoring of Entry-Level Professionals

        The Ambassador asked the DCM to give the embassy’s 10 entry-level professionals
strong hands-on attention. The DCM has complied with gusto. Entry-level professionals have
been rotated through country team meetings, appointed to serve as visit control officers, and
invited to get-togethers hosted by the DCM; one has been named the embassy’s Equal
Employment Opportunity counselor. To promote informal interaction, the DCM takes the entry-
level professional employees on short semiweekly off-site excursions, brings them along to
official engagements outside the embassy, and ensures they have the chance to interact with the
Ambassador at his residence. While entry-level professionals very much enjoy and value the
DCM’s attention, the OIG team suggested that the DCM also formalize one-on-one mentoring.




                                           5
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Policy and Program Implementation
Economic and Political Section

        The economic and political section operates energetically and collegially, marked by high
morale. The experienced and creative section chief, in his third year in Singapore, manages with
a light but expert touch. His proposal for a formal strategic dialogue with Singapore is moving
the bilateral relationship to a new level of cooperation. The economic and political units, each
headed by strong FS-02 officers, are productive. The embassy benefits from the insights of a
regional Treasury attaché; he is expected to devote only a small portion of his time to issues
related to Singapore but in fact devotes more attention than that to the bilateral relationship. The
section spends roughly two-thirds of its time on policy advocacy and supporting U.S. visitors and
the rest of its time on reporting and public diplomacy outreach.

        The section’s priority focus is commercial diplomacy. To guide its efforts, the embassy
created an interagency National Export Initiative task force, a National Export Initiative action
plan, and an Economic Statecraft plan. Washington action officers complimented the embassy’s
frequent coordination with the American Chamber of Commerce and U.S. business
representatives and the section’s promotion of the Trans-Pacific Partnership, a nine-country Free
Trade Agreement. Because almost all of the U.S. firms based in Singapore use it as a regional
hub, their officials often expect the embassy to assist in removing regional obstacles to trade.
The section’s suggestion to create a 1-year pilot position in Singapore to leverage these
opportunities did well in the Department’s Economic Statecraft contest.

         It has been difficult for the embassy to advance issues that affect the speed of
transshipment through Singapore’s port. The Ambassador and other U.S. Government officials
have engaged Singaporean officials to improve security and nonproliferation measures.
Singaporean Government officials, well aware of stiff competition from other ports, want to
maintain Singapore’s reputation as an easy place to do business. They have sometimes been
reluctant to take action to stop shipments that may contain dual-use items subject to U.S.
executive orders but not explicitly included in UN Security Council resolutions. Given the large
number of U.S. agencies with on-the-ground operations, the embassy is ideally suited to provide
its insights to inform ongoing discussions in Washington on ways to advance nonproliferation in
the region. During the inspection, the section agreed to take the lead on preparing a think piece
for Washington stakeholders on this subject.

         Singaporean officials, justifiably proud of the country’s economic openness, prosperity,
rule of law, and low levels of corruption, resist discussing Singapore’s less impressive rankings
on freedom of speech, assembly, and press. U.S. pronouncements on these subjects are waved
off by the Singaporean Government. However, the public criticism of the government policies
tolerated during the election campaigns in 2011 suggests the political space for discussing these
issues may be expanding. The embassy relies on public diplomacy and political outreach to
advance democracy promotion. The Ambassador raises Singapore’s progress in his speeches,
while stressing that the United States does not interfere in Singapore’s political system. Few U.S.
Government officials visiting Singapore underscore these points, which were also not raised in
the initial meetings of the bilateral strategic partnership dialogue. During the inspection, the

                                           6
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

embassy agreed to prepare a think piece with recommendations on how the U.S. Government can
more effectively approach these issues.

        The economic/political counselor has amplified the embassy’s outreach by establishing
an active corporate social responsibility program. Since September 2010, more than 130 embassy
community personnel have volunteered 1,300 hours in 50 events that have advanced U.S. goals
of promoting the rights of minorities and persons with disabilities and burnished the reputation of
the United States. The embassy and a major university are seeking to create a masters-level
curriculum on corporate social responsibility that will reach students from all over the region.
The embassy is also working with the American Chamber of Commerce, the Singaporean
Government, and local nongovernmental organizations to encourage companies to eradicate
trafficking in persons from their supply chains.

        The section coordinates the human rights vetting for Singaporean security force
candidates proposed for foreign assistance-funded programs in accordance with the Leahy
Amendment; the section processed 255 candidate records from August 2010 to March 2012.
The embassy has asked the Department to consider allowing fast track processing because
Singapore’s security services have never been implicated in gross human rights violations.
During the inspection, a Department specialist instructed the embassy’s Leahy vetting officer to
drop one of the eight checks done at the embassy because the vetting was being performed in the
Department. The Leahy vetting officer is storing the results of the checks in her personal email
folders, which are not being saved for 3 years or 10 years in accordance with Leahy vetting
guidance. She agreed to begin saving records of the vetting done at the embassy in the section’s
electronic folders and is willing to begin entering the checks into the International Vetting and
Security Tracking system once the Bureau of Democracy, Human Rights, and Labor confirms it
is a best practice.

Recommendation 1: Embassy Singapore, in coordination with the Bureau of Democracy,
Human Rights, and Labor, should implement a standard operating procedure for storing the
results of Leahy vetting checks done at the embassy for candidates nominated for foreign
assistance-funded training in accordance with Department Leahy vetting procedures. (Action:
Embassy Singapore, in coordination with DRL)

        The section handled about 80 delegations in 2011 and made logistical arrangements for
about 80 additional visitors. Washington officials from a variety of agencies praised the section’s
responsiveness and substantive support for these visits. The section’s two office management
specialists reported spending one-third to one-half of their time on visitor management, which
negatively affected their ability to work on other needed tasks. The section and the general
services office started streamlining visitor management in December 2011 and took steps during
the inspection to make the process even more efficient.

        The cost of entertaining in Singapore is high, necessitating careful management of
representational funds. Section staff reported that they did not have sufficient representational
funds to strengthen ties with contacts in informal settings or to reciprocate social invitations.
The OIG team found that the section used almost half of its first- and second-quarter
representational allotment on events that promoted general embassy outreach goals but not
section priorities. Funds were further reduced when the section used its representational
                                           7
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

allotment to host events for visiting officials. The section lacks an outreach plan or notional
representational budget broken down by each employee to allow those individuals to plan their
outreach.

       Informal Recommendation 1: Embassy Singapore should develop a representational
       plan for the economic and political section that reflects section policy priorities and is
       allocated by individual officer.

Reporting

        Washington end-users commended the embassy’s reporting. Both the economic and
political units have annual reporting plans that they regularly update. The OIG team suggested
that they incorporate the public affairs section in these plans. Policymakers and analysts also
praised the section’s responsiveness in answering questions. Given the time difference, the
embassy reports late-breaking news either in its end-of-day message to the Bureau of East Asian
and Pacific Affairs or by email. During the inspection, the section started to transmit relevant
reporting by record email.

        The embassy relies heavily on unclassified biographies of Singaporean officials prepared
by the Ministry of Foreign Affairs. Although detailed and accurate, these biographies lack
information pertinent to the officials’ involvement with the U.S. Government or the United
States. The embassy does not yet have a functioning central biographic file for information on
foreign nationals, official or private, who directly or indirectly influence domestic and foreign
policy in their countries, as specified by the Foreign Affairs Manual (FAM) in 2 FAM 113.3
b.(1). Each section and agency stores biographic information separately. The OIG team showed
section staff how other posts are using Diplopedia for unclassified and Sensitive But
Unclassified biographic information, suggesting that they consider using it.

Recommendation 2: Embassy Singapore should create a functioning central biographic file
accessible to Department personnel. (Action: Embassy Singapore)

        The section has historic classified biographic files dating back over 60 years. File
disposition instructions specify that the files of individuals who have been deceased for more
than 10 years should be destroyed. These meticulously maintained paper files include
observations and insights that would be invaluable to historians. The embassy is consulting with
the Department on how to retire these files.

        The economic unit has two experienced LE staff members. The economic specialist
researches reports effectively but would benefit from an advanced drafting course to train him to
prepare his own cables more effectively. The section agreed to explore appropriate courses with
the Foreign Service Institute. In September 2012, the section began using the press summary
produced by the public affairs section and stopped compiling its own press summary. The
section is exploring how best to use the skills of the economic assistant who has additional time
now that she no longer prepares a press summary. Although its workload is growing, the political
unit does not have an LE staff member. Section staff reported that the economic assistant has
effectively researched a number of political topics.

                                           8
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

       Informal Recommendation 2: Embassy Singapore should expand the economic
       assistant’s political reporting responsibilities and update the position description
       accordingly.

Records and Contact Management

        The section is beginning to use its SharePoint site but would benefit from training to use
SharePoint more effectively to save documents that are frequently referenced by staff. The
section’s electronic files are organized in accordance with the Traffic Analysis by Geography
and Subject system. Embassy personnel retain emails primarily in personal email folders and
have not yet started to preserve email messages that meet the definition of records in 5 FAM
443.2. The section also has not retired files in many years, as required by 5 FAM 433b.

Recommendation 3: Embassy Singapore should implement a plan to preserve and retire
records, including record email messages, in accordance with Department of State regulations.
(Action: Embassy Singapore)

         In accordance with a recommendation in the 2005 inspection report, the embassy began
using the Contact Management Database system in 2006. The database now has more than
14,000 records, 7,500 of which are active. The embassy plans to upgrade the database to the
latest release in 2012. The OIG team put the embassy in touch with the Foreign Service
Institute’s Regional Employee Development Center in Bangkok, which offered to send a trainer
to certify Embassy Singapore staff to train others in the use of the database if the embassy would
pay for the trainer’s travel. The embassy expressed interest in taking advantage of this offer.
Although many agencies and sections are using the database, a few need to improve their
accuracy when entering and updating records. The embassy has not yet issued instructions on the
responsibilities of the agencies and sections for using and updating the database.

       Informal Recommendation 3: Embassy Singapore should issue an embassy notice with
       a standard operating procedure for entering and updating records in the embassy’s contact
       management database.

Public Diplomacy

        In the words of the Ambassador, the recently arrived public affairs officer (PAO)
represented a “breath of fresh air” for the public affairs section. The OIG team concurs. Prior to
the PAO’s arrival, the section focused so heavily on cultural programs that the information
portfolio was being neglected; that is no longer the case.

         In his 6 months at the embassy, the PAO has brought much-needed changes to the section
by questioning long-standing assumptions about how things should be. Soon after his arrival, he
literally began cleaning house, disposing of 3 tons of outdated books, old files, and equipment,
including a kerosene-powered slide projector that he donated to the diplomatic history museum.
The seven LE staff members initially were concerned that the PAO was going overboard in his
efforts, but they now appreciate the additional space.


                                           9
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Strategic Planning

       The PAO has also reviewed programs and staffing, seeking to use funds and personnel
more strategically and balancing the information and cultural portfolios. Again, several LE staff
members were skeptical of the proposed changes; some were even fearful or resistant. Through a
slow but steady process of persuasion and consultation, however, the PAO has achieved a near
consensus on the direction of change. He is already moving ahead on revised position
descriptions for staff whose jobs are changing as well as a training plan for those who need to
augment their skills or acquire new ones. With these advances, the staffing in the section will be
adequate. The 2012 rightsizing report by the Department said the embassy projects the addition
of one LE staff member to focus on media outreach. The OIG team does not agree that this
additional position is needed.

       As part of this strategic review, the PAO is taking a hard look at the embassy’s three
American Corners. He is examining whether continuing the affiliation under current Department
guidelines makes sense, or if money intended for Singapore should be spent at American Corners
in countries whose public or school libraries are less well-endowed. Few PAOs are willing to
give up resources; this one is. He believes Singapore’s American Corners will continue to work
with the embassy even without financial support. Nonetheless, he is proceeding carefully. He is
consulting with the Bangkok-based information resource officer on plans for the American
Corners and the embassy’s small Information Resource Center.

        The PAO meets regularly with the Ambassador and the DCM, and he attends senior staff
as well as country team meetings. He has repaired the strained relationship his predecessor had
with the front office. He has gained the respect of mission leadership and the confidence of
country team members, important in an embassy where the Chief of Mission places an especially
strong emphasis on interagency cooperation. The PAO ensured that the mission’s 3-year
strategic plan contains a public affairs strategy and that public diplomacy is a part of other goal
papers. The section does spot reporting and contributes to mandatory reporting done by other
sections.

Information and Exchange Programs

        The public affairs section produces a daily media summary that the PAO shortened and
focused. The change allowed the economic/political section, which had been unhappy with the
earlier public affairs product, to stop producing its own media summary. He also assigned a
public affairs LE staff member to do a daily report on select human rights and
science/technology issues, thereby freeing the economic and political staff to devote more time
to other issues. Having made welcome changes in media reporting, the PAO will now need to
focus on the embassy’s social media sites: Facebook, YouTube, and Flickr. All sites comply with
Department guidelines on privacy and terms of use, but they are not all kept up-to-date. Postings
on Facebook are current, but those on YouTube and Flickr are not. The OIG team believes
intended staff reassignments will help in this area.

       Informal Recommendation 4: Embassy Singapore should determine which of its current
       social media sites best serve mission goals and implement a plan to focus its public
       diplomacy resources on keeping those sites up to date.
                                          10
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED



        An assistant PAO oversees multiple exchange programs. As recommended in the 2005
OIG inspection report, the DCM chairs the selection committee for the International Visitor
Leadership Program. Most nominations still come from the public affairs and economic/political
sections, but the embassy is working hard to encourage nominations from other mission
elements. The OIG team discussed a number of strategies the section might take to further that
effort.

        The Fulbright scholarship program is unusual but well run. Most Fulbright nominees
work for the Singaporean Government, which pays all costs for successful civil service
candidates. The arrangement allows Singapore a larger number of Fulbright scholars than would
otherwise be possible for a country of its size. Government nominees are well-qualified, and
there is real competition for the slots. A binational selection committee makes the final decision
on candidates. A small “open grants” category, fully funded by the U.S. Government, also
attracts well-qualified candidates. Fulbright officials in Washington are concerned that
Singapore’s government-financed scholars are not active in alumni associations upon return to
Singapore. The embassy agrees but notes it can tap successfully into the Fulbright network when
it needs alumni to serve on selection panels, suggest venues for visiting speakers, or help break
bureaucratic bottlenecks.

        For its Southeast Asia Youth Leadership Program, the embassy works with nonelite,
magnet-style schools whose student populations meet high academic standards but lack the
financial wherewithal to visit, much less study in, the United States. The principal of the school
with which the section most recently worked is a former Fulbright scholar and a graduate of the
Harvard School of Education.

Grants Management

        The section has a small grants program that the PAO is aligning more closely with
mission strategic goals. The section’s secretary maintains the grant files. She uses the proper
coversheet, documents her checks of the Excluded Parties and Treasury Sanctions lists, promptly
submits information to the federal grants database, and works with the financial management
office for the obligation and deobligation of funds.

        There are a few problems, however. Not all files contained the required receipts for
grantee expenditures, a problem that the section quickly moved to correct once the OIG team
pointed it out. A second and related problem is that several LE staff members are officially
designated in the files as grants officer representatives despite their lack of required grants
training, which means that they are not fully aware of all the rules and regulations governing
grants, creating the potential for misuse of grants and grant monies. Although the section
secretary has taken grants training, she has multiple other obligations and other LE staff
members are the grantees’ primary points of contact within the section. Grants training is
available online from the Foreign Service Institute.

Recommendation 4: Embassy Singapore should implement a plan for all locally employed staff
members in the public affairs section who deal with grants to take the grants training courses
offered online by the Foreign Service Institute. (Action: Embassy Singapore)
                                          11
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED



Language Designated Position

        The assistant PAO, an entry-level officer, holds one of the embassy’s few language
designated positions. She spent several months in language training, first in Washington and then
at a school in Malaysia. She is leaving Singapore in summer 2012, and her successor is currently
in Malay language training. The assistant PAO rarely uses Malay in day-to-day interactions with
staff, local media, or educational contacts. Most Singaporeans speak English, which is the
medium of instruction in most schools. According to 13 FAM 221 b.(1), only those positions
where language proficiency is essential, rather than merely helpful or convenient, should be
designated. The assistant PAO position (position number 60172003) does not meet that criterion.

Recommendation 5: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources, should remove the Malay language designation for the position of
assistant public affairs officer at Embassy Singapore. (Action: EAP, in coordination with DGHR)

Consular Affairs

        The consular section competently handles a modest but complex workload. Singapore is
a visa waiver country, but Singaporeans applying for nontourist/business visas and third country
nationals from 120 countries applied for more than 36,000 nonimmigrant visas in 2011. The
section has a significant American citizens services workload, with a clientele heavily weighted
to business expatriates; they expect and receive high standards of service.

        The LE staff has gone through significant turnover in the last few years, including the
arrest and conviction for theft of the consular cashier, an incident that still resonates with section
employees more than 3 years later. After years of staffing vacancies, the section is fully staffed,
with new LE staff supervisors in the American citizens services and nonimmigrant visa units.
The embassy has expanded consular workspace significantly, using embassy funds to extend the
consular section into adjoining vacant office space.

        Consular employees expressed uncertainty to the OIG team as to the chain of command.
The new consular section chief had changed supervisory relationships without informing the
deputy section chief or the DCM, leading to confused lines of authority. He later retracted some
of those changes but continued to exclude the deputy section chief from decisions affecting her
staff. The deputy section chief acknowledged other problems in communicating with her staff
but has made improvements. The OIG team counseled the consular managers on leadership skills
and advised the DCM to be more directly involved in mentoring the officers.

Consular Staffing

        The section operates appointment systems for both American citizens services and visas,
currently maintaining wait times of no more than a few days. The section handles its workload
well but may have problems managing increased demand unless it can better control the flow of
applicants into the section.


                                           12
                               SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        All applicants arrive at the embassy entrance, where contract guards direct them to an
outside covered waiting area. The guards then call them up in groups, clear them through
security, and allow them to proceed into the consular waiting rooms. Embassy guards admit
applicants on a first-come first-served basis even though the applicants have scheduled
appointment times. Applicants often arrive earlier or later than their actual appointment times,
which causes the flow of people into the section to vary significantly over the course of the day.
Applicants who arrive on time are disadvantaged when they have to wait behind others who have
later appointments but arrived early. Longer lines than are necessary and overcrowding
sometimes occur as a result. The embassy has asked the Department to fund consular greeters
who could work in the outside waiting area checking appointments and answering questions as
applicants arrive. This request is in line with a recommendation from a Consular Management
Assistance Team from the Bureau of Consular Affairs that visited Singapore in February and
March 2011. The OIG team concurs with the recommendation from that team.

Recommendation 6: The Bureau of Consular Affairs, in coordination with Embassy Singapore,
should fund greeter services in the outside consular waiting area at the embassy entrance.
(Action: CA, in coordination with Embassy Singapore)

        The three entry-level officer (ELO) positions in the consular section have officers who
arrived within a few months of each other in summer 2011; the three officers are due to finish
their tours in Singapore at approximately the same time in 2013. The strain on the consular
section in summer 2011 was great, given the gaps between departing and arriving officers and
the fact that three out of five consular officers were new to the section. This situation arose when
a sudden curtailment threw the three entry-level consular officer positions into the same
assignments cycle. The OIG team understands that replacements have already been paneled for
the three ELO positions, filling the positions through 2015. In the future, it would be helpful if
the Department could devise a staggered replacement schedule for the three ELO positions in
Singapore.

        One of the three ELO positions in the consular section (position number 30170002) is
language designated as 2/1 in Mandarin Chinese. The consular section averages only a few visa
applicants a day who speak Mandarin Chinese but not English. The section has many LE staff
members who can translate for the consular officers. The consular workload does not justify the
cost of training an officer in Mandarin Chinese.

Recommendation 7: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources, should remove the Mandarin Chinese language designation from
the entry-level officer position in the consular section in Embassy Singapore. (Action: EAP, in
coordination with DGHR)

        The embassy has an experienced consular associate who is qualified to perform duties
such as notarials and administering oaths on passport applications. She is currently performing
intake duties in the American citizens services unit, tasks that an LE staff member could handle.
The consular managers are using officers to perform work that could be done by this consular
associate, which is not an effective use of resources.


                                          13
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 8: Embassy Singapore should assign the consular associate additional
responsibilities, including notarial and passport duties, commensurate with her training and
experience. (Action: Embassy Singapore)

        The consular section provides a full range of services, including nonimmigrant and
immigrant visas and American citizens services. The LE staff is not well cross-trained in areas
other than their own, although a factor is that the majority of LE staff members are newly hired
within the last 2 years. Given the small size of the section and the outsized effect that unexpected
absences can have on effective operation, additional cross-training is a priority for both LE staff
and officers. Only two officers in the section have had recent immigrant visa experience. One of
those officers will transfer early in summer 2012, leaving just one officer qualified to perform
the work.

Recommendation 9: Embassy Singapore should implement a plan to cross-train locally
employed staff and officers in appropriate consular functions and make sure procedures are in
place to maintain skills after training is completed. (Action: Embassy Singapore)

Consular Procedures

         Employees of other embassy sections enter the consular section behind the hard line to
receive routine American citizens services, such as notarials or passport applications. Consular
employees deal with personally identifiable information and controlled items in their work area,
and it is not appropriate for employees from outside the section to enter the unit to receive
routine services.

Recommendation 10: Embassy Singapore should implement a policy that requires employees
seeking American citizens services to do so at the regular service windows in the waiting room
rather than entering the work area. (Action: Embassy Singapore)

Consular Resources

         The 2005 OIG inspection report noted of the consular section that “…public areas are
cramped with working areas filled to capacity.” The Bureau of Overseas Buildings Operations
prepared a plan to expand and improve the consular workspace, but did not provide funding. In
the last few months, the embassy has used program funds to address the issue, opening up an
adjoining office area to provide more work and storage space for the consular section. This
project has helped tremendously but does not address other problems, (b) (5)




Recommendation 11: (b) (5)




                                          14
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

        The consular section suffers chronic problems with computer equipment provided by the
Bureau of Consular Affairs. The issues include units that shut down with no warning, fingerprint
scanners and cameras that fail to operate properly, and visa printers that do not function
appropriately. The problems are growing worse, and the embassy’s information management
office notes that it has devoted a significant portion of its time to supporting the consular section
over the past year.

        The Bureau of Consular Affairs last replaced Embassy Singapore’s consular computer
equipment in 2007 and scheduled a replacement shipment for December 2010. The Department
cancelled that shipment, however, due to delays in the procurement process. The equipment is
now more than a year past the originally scheduled replacement date. On a recent day, the
camera for nonimmigrant visas failed, a fingerprinting scanner failed, and the document printers
in both the American citizens services unit and the immigrant visa unit failed. The consular
section received help from the Department and the information management office each time,
but the section’s efficiency is reduced by these computer problems. The section will continue to
have efficiency problems until its aging computer equipment is replaced.

Recommendation 12: The Bureau of Consular Affairs should provide replacement computer
equipment to Embassy Singapore. (Action: CA)




                                          15
                              SENSITIVE BUT UNCLASSIFIED
                               SENSITIVE BUT UNCLASSIFIED


Resource Management
          Agency                 U.S. Direct-     U.S.       Foreign    Total    Total
                                  Hire Staff     Local-      National   Staff   Funding
                                                Hire Staff    Staff             FY 2011
Department of State
Program                                   33            2           7      42   $4,200,325
ICASS                                      7           16          60      83   $8,868,500
Bureau of Overseas                                                              $4,662,244
Buildings Operations
Bureau of Consular Affairs                  5            2          9      16    $239,850
Public Diplomacy                            2                       7       9    $801,421
Bureau of Diplomatic                        2                       2       4
Security                                                                         $714,202
Marine Security                             7                       1       8     $93,140
Department of Agriculture
Foreign Agriculture Service                                         2       2    $228,801
Department of Defense
Defense Attaché Office                    17                        3      20   $1,645,740
Office of Defense                         11             2          4      17
Cooperation
Office of Naval Research                    4            2                  6
Global                                                                           $252,080
Department of Justice
Drug Enforcement                            3                       1       4
Administration
Federal Bureau of                           3                               3
Investigation
Department of
Transportation
Federal Aviation                            3            1          3       7
Administration/Internal
Affairs Office
Federal Aviation                          15             2          3      20
Administration/International
Field Office
Department of Homeland
Security
U.S. Coast Guard                          11                               11
Customs and Border                         1                        1       2
Protection
                                           16
                               SENSITIVE BUT UNCLASSIFIED
                                   SENSITIVE BUT UNCLASSIFIED

    Customs and Border                               7                                1           8
    Protection/Container
    Security Initiative
    Immigration and Customs                          7                                1           8
    Enforcement
    Transportation Security                         10                                2         12
    Administration
    Department of Commerce
    Foreign Commercial Service                       2                              10          12        $1,282,420
    Bureau of Industry and                           1                               1           2        $ 207,300
    Security
    Treasury                                        1                                            1
    Totals                                        152               27             118         297      $23,196,023 1

Management Section

         Embassy Singapore’s impressive management section supports a growing mission. The
section had the third highest International Cooperative Administrative Support Services (ICASS)
scores in the Bureau of East Asian and Pacific Affairs in 2011 and scores over 4.0 on a scale of 1
to 5 in the OIG Workplace and Quality of Life questionnaires distributed prior to the inspection.
These scores demonstrate that customers have a high degree of satisfaction with management
support. In its interviews with embassy employees, the OIG team confirmed that they consider
management services to be very good.

        U.S. direct-hire staffing at the mission grew by 18 percent in the last 6 years; the ICASS
staff has not. In fact, the ICASS LE staff has declined 6 percent in 6 years. The management
section has also added regional support to Embassy Bandar Seri Begawan.

        Present staffing is minimal. A financial management officer, a human resources officer,
two general services officers, an information management officer, a facilities management
officer, and 67 ICASS LE staff members support the management counselor.

        During the inspection, the embassy was discussing with the Department of the Navy a
proposal to locate 17 employees of the Medical Research Unit from Hawaii to the Government
of Singapore’s military base at Sembawang. This proposal would require the Chief of Mission to
give National Security Decision Directive 38 (NSDD-38) approval. The unit supports U.S.
Government goals by providing a comprehensive capability to study infectious and tropical
diseases where they occur. While NSDD-38 requests have not yet been submitted, the embassy
is performing a useful pre-NSDD-38 review to develop sufficient information for the

1
 Funding does not include salaries of U.S. direct-hire staff, which are paid by agencies in Washington, and is
included only for agencies whose budgets are administered by the Department.




                                               17
                                   SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Ambassador’s consideration. Approval of the NSDD-38 would have an impact on ICASS service
providers, who would have additional responsibilities leasing residences, recruiting and hiring
additional LE staff, processing payroll actions, and many other management services.

Human Resources

        The human resources office includes one officer and four LE staff members who are well
trained and efficient. The office provides excellent service for approximately 300 staff in
Singapore. In the past year, the staff has revised the Singapore local employee handbook, helped
with recompeting the LE staff’s health and life insurance contracts, and updated the LE staff
compensation plan. It also helped ensure all employee evaluations were submitted within
established deadlines. Thus far, staffing for this office has been sufficient, but the office may
need additional personnel resources should potential increases in ICASS-related requirements
materialize. In that case, the human resources officer believes the creation of an eligible family
member position would help meet the demand.

          The staff has provided computer-aided job evaluations since 2002, when the system
was implemented. The Computer-Aided Job Evaluation system will be fully replaced by the
Mission Classification system in October 2012; the old system will be retired in December 2012.
The Mission Classification system is a more comprehensive automated local staffing and
classification system that incorporates new features and system enhancements. It retains the
same job evaluation questionnaire and calculation formula; hence, no positions will require
reclassification.

          According to the office’s records, all personnel evaluations were submitted within
established deadlines.

Local Staff Committee

        During the OIG team’s meeting with the local staff committee, the chairman raised the
local staff’s concern with the continuing pay freeze. The staff is also concerned about the lack of
health benefits after retirement. Although embassy staff is positioned in the 80th to 90th
percentile in compensation comparisons, the staff is concerned that their salaries are not keeping
pace with market basket and housing costs.

Financial Management

        Overall, the financial management office provides excellent customer service and
financial support, including accounting, budgeting, cashiering, vouchering, and payroll. The OIG
team found no anomalies in its review of cashier operations, unliquidated obligations, the
suspense deposit account, accounts receivable, or outstanding advances. The office did have
some issues with delinquent payments to vendors. The OIG team discussed with the financial
management officer ways to improve the financial operation, including modifying standard
operating procedures, reorganizing staff, and outsourcing some of its workload.

     The office’s present staffing, an American financial management officer and 11 LE staff
members, is sufficient to meet customer needs and provide oversight. However, the office would
                                          18
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

be hard pressed to take on additional work without a staffing increase. The financial management
officer is focused on increasing the efficiency of the LE staff.

U.S. Department of Treasury

        In August 2009, the current Department of Treasury attaché agreed to share the costs of a
Department-funded LE staff member in the economic and political section and pay for one-third
of her salary and benefits beginning in FY 2010. He also agreed to sign up for all ICASS
services at an annual cost of approximately $46,000. The Department of Treasury has not yet
reimbursed the Department for its share of the salary for the LE staff member nor has the
Department of Treasury office signed up for all ICASS services.

Recommendation 13: Embassy Singapore should request that the Department of Treasury
attaché reimburse the Department of State for one-third of the salary costs and the administrative
support costs for the locally employed staff member who is supporting him. (Action: Embassy
Singapore)

        The LE staff member attempts to manage the Department of Treasury’s approximately
$350,000 budget without training or knowledge of U.S. Government budgeting requirements. It
is not appropriate for her to be performing these tasks.

Recommendation 14: Embassy Singapore should require the locally employed staff member in
the economic and political section to discontinue performing budgeting and accounting work.
(Action: Embassy Singapore)

Vouchering

       Embassy Singapore has a light voucher workload of approximately 8,700 vouchers
annually. The embassy’s voucher examiners process approximately 1,435 vouchers per
examiner. This amount is well below the worldwide average of 2,033 vouchers per examiner and
below other embassies in the region.

        The embassy could achieve greater efficiency by modifying its standard operating
procedures on vouchering. The OIG team queried Embassy Bangkok and Embassy Canberra to
ascertain why their staff efficiency is much higher. These embassies’ financial management
sections use electronic systems to track the status of vouchers.

        The financial management office has not established a method to track vouchers.
Managers cannot assess and monitor staff performance when they do not have full knowledge of
the status of a voucher. The OIG team learned that there were complaints about late vendor
payments. The section’s inability to pay bills within 30 days to meet the Prompt Payment Act 2
requirements or vendors’ needs could harm the embassy’s reputation and limit the number of
vendors willing to do business with the embassy.



2
    31 USC Chapter 39
                                         19
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

        A voucher tracking system is essential to efficient operations. The LE staff in the
financial management office has resisted developing or adopting a tracking system believing that
the data input necessary for a tracking system to be useful is an unnecessary burden. However,
larger missions with heavier workloads use tracking systems regularly.

Recommendation 15: Embassy Singapore should track vouchers using the Bureau of Resource
Management’s E-vouchering system or an alternative system. (Action: Embassy Singapore)

        The OIG team discussed the possibility of outsourcing travel voucher processing to the
post support units. This change would release one voucher examiner from travel support and
processing and allow her to perform other local voucher work. The cost to outsource voucher
processing to post support units is not great. Cost estimates for processing 300 -500 travel
vouchers annually range from $3,600 to $6,000. Hiring an additional voucher examiner might
cost more than $31,000 annually. Other vouchers, in addition to travel vouchers, might also be
effectively outsourced.

Recommendation 16: Embassy Singapore should outsource its travel advance and travel
voucher processing payment functions to the Bureau of Resource Management’s post support
units. (Action: Embassy Singapore)

Accommodation Exchange

        A Class B cashier provides accommodation exchange for U.S. direct-hire staff and
official visitors. In 2011, Global Financial Services Bangkok reviewed the (b) (5) cash
advance level and deemed it appropriate. However, the OIG team stressed the importance of
keeping the cash advance level low and pursuing opportunities to outsource the accommodation
function to a commercial bank.

        At the OIG team’s suggestion, the financial management officer agreed to reduce the
amount of the cash advance U.S. dollar holdings from (b) (5) to a lesser amount, as the demand
does not warrant such a large amount. The Class B cashier has had problems running out of
Singapore dollars. By reducing the U.S. dollar holdings, she will be able to have more Singapore
dollars in her cash advance.

        The Class B cashier also cashes Department of Treasury checks for 48 retired LE staff
members. The total monthly cash disbursement to retirees is more than (b) (5) . The embassy
cashes these checks as a good will gesture because local banks charge retirees a high fee for
check cashing services and some banks refuse to cash these checks. A representative from the
Office of Personnel Management visited Singapore and pointed out that retirees may choose to
have electronic deposit of pension checks.

Recommendation 17: Embassy Singapore should discontinue cashing pension checks for retired
locally employed staff members and implement electronic deposits of pension checks. (Action:
Embassy Singapore)

General Services

                                         20
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

            The general services office, with its small staff, effectively supports the embassy and
fulfills its regional responsibilities admirably. Using spreadsheets and statistical analysis, the
assistant general services officer has optimized inventory usage and replenishment, tracked
household utilities usage, provided bimonthly information to residents, and determined that
reducing the number of vehicles and drivers would save $95,000 while still meeting service
needs.

Innovative Practice: Inventory Optimization and Forecasting

Issue: General services offices struggle with how much inventory they need to meet future,
uncertain demand. Often they purchase and store more inventory than is needed because there
has not been an easy way to forecast actual requirements relative to inventory on hand.

Response: Using the Integrated Logistics Management System’s asset management function,
Embassy Singapore created an inventory model in an Excel spreadsheet that uses statistical
methods, simulation, and historical data analysis to determine optimal inventory levels. The
spreadsheet functions enable the property manager to develop an inventory target that responds
to a specific confidence or risk level. The model also identifies what inventory to dispose of and
how much to purchase. To run this model, the embassy uses the departure list, the number of
incoming officers, and the locations where the spares or inventory are located. The model does
the rest, generating useful reports and analyses.

Result: This method helped the embassy avoid unnecessary purchases. Embassy Singapore
reduced spares by more than 25 percent, saving nearly $50,000 on annual furniture purchases,
while absorbing six new families into the furniture pool. The Bureau of Administration’s Office
of Logistics Management recognized the value of this methodology and is exploring how to
include it in the Integrated Logistics Management System’s asset management module.




Innovative Practice: Automated Utilities Usage Emailer
Issue: Embassy Singapore employees were unaware of the cost for residential utilities and had
no way to measure progress in conserving energy and reducing costs.

Response: To provide information about energy usage, the embassy devised a spreadsheet-based
tool that automatically generates a customized email that shows residential occupants their utility
costs and usage and compares the data for similarly-sized households. When the residence is
using more utilities than average, a tip on how to reduce usage is included, such as air drying
dishes in lieu of using dishwashers for drying. When the residence is using less than the average,
the email contains a congratulatory statement and encouragement to continue the good practices.
The email is sent bimonthly to coincide with actual meter readings.

Result: The cost for utilities was approximately $1 million annually until the program began in
2011. The awareness campaign helped reduce utility costs by 15 percent in 2011.


                                          21
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Motor Pool

          Motor pool policies and procedures are cost-effective. The motor pool effectively
monitors fuel usage through the use of electronic devices. Taxis are available and plentiful
during business hours and cost about $10 per trip compared with $70 for a comparable trip using
a motor pool vehicle. Based on this analysis, the embassy reduced the number of motor pool
drivers by two, sold old vehicles, and began requiring most employees to use taxis in lieu of the
motor pool. Out of the savings generated, the embassy hired two warehouse employees and
eliminated a need for contract labor at the warehouse.

        The Ambassador has two drivers who are not included in the general motor pool, which
also consists of two drivers. While the Ambassador’s drivers work alternating shifts and
alternating weekend days, they have little time off and remain “on-call” all day. They are
expected to stay in town and within reasonable proximity to the embassy at all times. Their
schedules are determined by the Ambassador’s office management specialist, not the motor pool
dispatcher. If the Ambassador’s drivers were part of the motor pool, they could share some of
their work with the other drivers. Operating armored vehicles and other heavy vehicles in
Singapore requires a special Class 4 driver’s license. If all drivers get the special Class 4 license
and are assigned to the dispatcher, drivers would be available to provide services to the
Ambassador.

Recommendation 18: Embassy Singapore should assign all drivers to the motor pool and ensure
that all drivers have the appropriate licenses to operate armored vehicles and other heavy
vehicles. (Action: Embassy Singapore)

        The drivers believe their position descriptions do not reflect either the requirements of
driving heavy vehicles or the licensing requirements the Singaporean Government imposes on
drivers of heavy vehicles.

       Informal Recommendation 5: Embassy Singapore should review the position
       descriptions of all drivers to ensure they include specific requirements for driving special
       vehicles and reflect Government of Singapore requirements for licenses to drive such
       vehicles.

Housing

        The housing unit is performing well. The rental costs for housing that meets space
standards, based on the grade level of the employee and the family size, exceed $50,000 per year.
Due to the costs, the embassy must obtain a waiver from the Department on each lease. The
housing coordinator, an eligible family member, is a dynamic member of the general services
office staff. She is constantly looking for new residences, negotiating seriously for lower rental
costs, and eliminating older and less desirable properties.

Procurement

      The LE staff in the procurement unit has adapted readily to the Integrated Logistics
Management System but has continuing difficulties with the need to add the Federal
                                          22
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Procurement Data System information to the purchasing module of the system. The senior
procurement LE staff member is highly experienced and understands contracting requirements
well. The procurement assistants are also well versed in the requirements.

Facilities Management

       The facilities manager is responsive and competent. He is highly respected and
thoroughly professional. The four-person facilities staff is unable to handle the full volume of
work; the embassy uses contractors for many maintenance projects.

        The small workshop at the chancery is seldom used because fumes, sawdust, and other
workshop residuals foul the air. This workshop was, until the time of the inspection, the desk
location for the locally hired U.S. citizen employee who serves as the assistant post occupational
and safety officer and as a security escort. The OIG team noted that this space was improper for
an employee. He was sitting in the air handling space where ducts are uncovered, air
conditioning is minimal, the humidity is higher than normal, and lighting is poor. This employee
had worked in this unhealthy environment for 6 years. Subsequent to the visit of the OIG team,
the embassy moved this employee to a suitable location in the general services office.

Spring Grove Property

        The U.S. Government has a 99-year lease on approximately 6.5 acres of land, the site of
the former chief of mission residence. In 1991, the Bureau of Overseas Buildings Operations
leased the site to a developer, the Spring Grove Condominium Association. The association,
which has 325 condominium owners, recently provided an unsolicited offer to purchase the
remaining 78 years on the underlying lease. The Department declined the offer but is now
considering the potential outright sale or lease top-off of the property. The Bureau of Overseas
Buildings Operations has asked Embassy Singapore to seek brokerage services to pursue this
possibility.

Regional Support to Embassy Bandar Seri Begawan

       Since 2005, Embassy Singapore has been tasked to provide regional management support
services to Embassy Bandar Seri Begawan. These services are intended to augment U.S. direct-
hire management capabilities at Embassy Bandar Seri Begawan, which is currently limited to a
mid-level management officer with a general services background and an information
management officer. In the past, first-tour entry-level officers have served in Bandar Seri
Begawan as the management officers, necessitating Embassy Singapore to provide considerable
advice and other support there.

Human Resources

       Embassy Bandar Seri Begawan has one LE staff member working as the human
resources assistant. She is responsible only for LE staff issues. The management officer is
responsible for U.S. direct-hire issues. Embassy Singapore does computer-aided job evaluations
and helps with in-processing and provided these services, for example, when 32 additional local
guards were hired in Bandar Seri Begawan.
                                          23
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



        Prior to January 2012, Embassy Singapore’s human resources officer had not visited
Embassy Bandar Seri Begawan in more than 2 years. Instead, the officer provided assistance via
telephone, email correspondence, and digital videoconferencing. The 2011 memorandum of
agreement stated that the human resources officer would provide a minimum of two visits per
year as requested and funded by Embassy Bandar Seri Begawan. The arrangement did not work
as well as it should have. (b) (5)




       An updated memorandum of agreement, dated March 2012, requires Embassy
Singapore’s human resources officer to visit Bandar Seri Begawan three times per year. The OIG
team counseled the management counselor that it was important for Embassy Singapore officers
to adhere to this schedule.

Financial Management

        The financial management office provides good regional support to Embassy Bandar Seri
Begawan, whose two LE staff members consult with Embassy Singapore regularly. The financial
management officer outsourced Embassy Bandar Seri Begawan’s vouchering to the
Department’s financial service centers’ post support units. Even with this change, Embassy
Singapore has final responsibility for all of Embassy Bandar Seri Begawan’s financial
operations. Embassy Singapore’s financial management officer visited Bandar Seri Begawan
three times in the 12 months prior to the inspection.

General Services

        The regional support for the general services function is also working well. During the
OIG inspection of Embassy Bandar Seri Begawan, the officers from both embassies discussed
their plan to make Embassy Bandar Seri Begawan more independent in this area. Employees in
Bandar Seri Begawan are learning how to use the Integrated Logistics Management System for
asset management, receiving, and inventory procedures.

Facilities Management

       The regional support for facilities management is also working well. A newly hired LE
staff member in Bandar Seri Begawan credits visits from Singapore with helping to structure the
remedial work needed in the new embassy compound in Bandar Seri Begawan.

Equal Employment Opportunity

        An ELO Equal Employment Opportunity counselor and LE staff liaison run an effective
Equal Employment Opportunity program. The OIG team observed an excellent briefing on the
program that the counselor gave to the country team. The embassy has an ethnically and
religiously diverse staff. It has not had any complaints in many years.
                                         24
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED



        The Federal Women’s Program coordinator is aware of her responsibilities. She was sent
links to written instructions located in Diplopedia and on the Office of Civil Rights Web site.

Information Management

       The information management office is an efficient operation that generally meets the
needs of 252 customers, as evidenced by high marks in OIG questionnaires. Internal information
systems and operations are solid. All recommendations in the 2005 OIG inspection report and in
the 2010 Computer Security Assessment have been closed. The classified annex to this report
also contains a review with recommendations for the information management office.

        The information management office has new projects on the horizon, which include the
installation of a new telephone system and SharePoint deployment. The team is testing the iPad
as a duty book that will be deployed in April. The embassy has an active BlackBerry and
OpenNet Everywhere program. In reviewing help desk tickets, the OIG team determined that the
information management office has spent a disproportionate amount of time supporting
customers in the consular section. The information management office has worked diligently
with the consular section and the Department to resolve technical issues, but the problems are
exacerbated by the fact that the consular systems equipment is overdue for replacement. The
section of this report on consular affairs includes a recommendation related to this issue.

        The information system center LE staffing has remained the same for the past 10 years,
yet the embassy customer base has increased significantly. The center supports customers in 19
ICASS agencies. With the management of complex systems and new applications, staff
workload has increased and the LE staff has had a difficult time keeping up with service requests
and tasks. The ICASS Service Center’s staffing analysis for information management offices
indicates that the workload per information management LE staff member in Singapore is above
the worldwide average. An increase of one LE staff member could put Singapore more on par
with similar-sized posts. The information management officer plans to pursue this issue with the
ICASS council.




                                         25
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


Quality of Life
        Morale among Americans is high. Housing is attractive albeit costly. Food is plentiful in
local markets and hawker stalls, in which dozens of stands are grouped together to sell a variety
of local specialties at very low prices. Additionally, taxis are reasonably cheap, schools get high
marks, and the crime rate is low. Medical care in Singapore is renowned for the latest techniques
and diagnostics, and Singapore is an evacuation site for posts throughout much of Asia.

Schools

       The majority of embassy children attend (b)(5)(b)(6)
                                                                               Most employees
report they are very pleased with the school.

Community Liaison Office

        A full-time community liaison office coordinator and a 3-day-a-week assistant serve the
embassy community. The OIG team heard from a number of community members that the
community liaison office’s activities and performance have improved significantly during the
last year.

        In 2011, the embassy relocated the community liaison office to new office space, a glass-
partitioned area inside the embassy cafeteria. The two employees share the cramped office. The
office walls do not reach the ceiling along one side of the office space. The opening in the wall
and the cafeteria location create a noise level louder than in normal office workspaces. The lack
of privacy inhibits office visitors from speaking to the community liaison office coordinator in
confidence and hinders the community liaison office coordinator from carrying out some of her
duties.

Recommendation 19: Embassy Singapore should relocate the community liaison office to an
office that provides sufficient privacy for the community liaison office coordinator to carry out
official duties. (Action: Embassy Singapore)

Medical Unit

        Staffing in the medical unit is not sufficient for the medical evacuations and local health
care requirements. The number of individuals eligible for medical evacuations has increased by
approximately 14 percent since 2007; the number of clinical health unit visits has increased by
approximately 13 percent in the same period. The geographic area for the medical evacuation
responsibility extends from Mongolia and China to Australia and New Zealand and includes
approximately 40 locations. Singapore has replaced Bangkok as the regional medical evacuation
center for Asia.

       The medical unit attempts to deal immediately with medical evacuations and makes
appointments with specialist local health care providers and for hospital care. While medical care
in Singapore is excellent, if an evacuation to the United States or elsewhere is indicated, that

                                          26
                              SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED

appointment is also made in advance. One of the two full-time LE nurses is the medical
evacuations coordinator. She manages lodging and transportation requirements, billing, and
submission of insurance claims for evacuations. This role often precludes her from dealing with
medical situations. A fully-trained medical professional should not be providing administrative
services when medical care is the top priority in the medical unit.

Recommendation 20: Embassy Singapore, in coordination with the Office of Medical Services,
should develop quantitative evidence documenting the need for a locally employed medical
evacuations coordinator position for the medical unit in Embassy Singapore and use that
evidence to request the resource in the Mission Resource Request. (Action: Embassy Singapore,
in coordination with MED)




                                         27
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


Management Controls
Management Section

       The annual chief of mission management controls statement of assurance, dated June
2011, includes evidence that risk assessment questionnaires were completed and that the housing
program complies with FAM requirements.

        The evaluation of the systems of management controls provided reasonable assurance
that there were no outstanding control weaknesses. The OIG team also did not find any control
issues.

Consular Section

      The OIG team reviewed consular management controls and determined that the consular
managers are exercising appropriate controls.




                                         28
                             SENSITIVE BUT UNCLASSIFIED
                             SENSITIVE BUT UNCLASSIFIED


List of Formal Recommendations
Recommendation 1: Embassy Singapore, in coordination with the Bureau of Democracy,
Human Rights, and Labor, should implement a standard operating procedure for storing the
results of Leahy vetting checks done at the embassy for candidates nominated for foreign
assistance-funded training in accordance with Department Leahy vetting procedures. (Action:
Embassy Singapore, in coordination with DRL)

Recommendation 2: Embassy Singapore should create a functioning central biographic file
accessible to Department personnel. (Action: Embassy Singapore)

Recommendation 3: Embassy Singapore should implement a plan to preserve and retire
records, including record email messages, in accordance with Department of State regulations.
(Action: Embassy Singapore)

Recommendation 4: Embassy Singapore should implement a plan for all locally employed
staff members in the public affairs section who deal with grants to take the grants training
courses offered online by the Foreign Service Institute. (Action: Embassy Singapore)

Recommendation 5: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources, should remove the Malay language designation for the position of
assistant public affairs officer at Embassy Singapore. (Action: EAP, in coordination with DGHR)

Recommendation 6: The Bureau of Consular Affairs, in coordination with Embassy
Singapore, should fund greeter services in the outside consular waiting area at the embassy
entrance. (Action: CA, in coordination with Embassy Singapore)

Recommendation 7: The Bureau of East Asian and Pacific Affairs, in coordination with the
Bureau of Human Resources, should remove the Mandarin Chinese language designation from
the entry-level officer position in the consular section in Embassy Singapore. (Action: EAP, in
coordination with DGHR)

Recommendation 8: Embassy Singapore should assign the consular associate additional
responsibilities, including notarial and passport duties, commensurate with her training and
experience. (Action: Embassy Singapore)

Recommendation 9: Embassy Singapore should implement a plan to cross-train locally
employed staff and officers in appropriate consular functions and make sure procedures are in
place to maintain skills after training is completed. (Action: Embassy Singapore)

Recommendation 10: Embassy Singapore should implement a policy that requires employees
seeking American citizens services to do so at the regular service windows in the waiting room
rather than entering the work area. (Action: Embassy Singapore)

Recommendation 11: (b) (5)



                                         29
                             SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED

Recommendation 12: The Bureau of Consular Affairs should provide replacement computer
equipment to Embassy Singapore. (Action: CA)

Recommendation 13: Embassy Singapore should request that the Department of Treasury
attaché reimburse the Department of State for one-third of the salary costs and the administrative
support costs for the locally employed staff member who is supporting him. (Action: Embassy
Singapore)

Recommendation 14: Embassy Singapore should require the locally employed staff member
in the economic and political section to discontinue performing budgeting and accounting work.
(Action: Embassy Singapore)

Recommendation 15: Embassy Singapore should track vouchers using the Bureau of
Resource Management’s E-vouchering system or an alternative system. (Action: Embassy
Singapore)

Recommendation 16: Embassy Singapore should outsource its travel advance and travel
voucher processing payment functions to the Bureau of Resource Management’s post support
units. (Action: Embassy Singapore)

Recommendation 17: Embassy Singapore should discontinue cashing pension checks for
retired locally employed staff members and implement electronic deposits of pension checks.
(Action: Embassy Singapore)

Recommendation 18: Embassy Singapore should assign all drivers to the motor pool and
ensure that all drivers have the appropriate licenses to operate armored vehicles and other heavy
vehicles. (Action: Embassy Singapore)

Recommendation 19: Embassy Singapore should relocate the community liaison office to an
office that provides sufficient privacy for the community liaison office coordinator to carry out
official duties. (Action: Embassy Singapore)

Recommendation 20: Embassy Singapore, in coordination with the Office of Medical
Services, should develop quantitative evidence documenting the need for a locally employed
medical evacuations coordinator position for the medical unit in Embassy Singapore and use that
evidence to request the resource in the Mission Resource Request. (Action: Embassy Singapore,
in coordination with MED)




                                          30
                              SENSITIVE BUT UNCLASSIFIED
                              SENSITIVE BUT UNCLASSIFIED


List of Informal Recommendations
        Informal recommendations cover operational matters not requiring action by
organizations outside the inspected unit and/or the parent regional bureau. Informal
recommendations will not be subject to the OIG compliance process. However, any subsequent
OIG inspection or on-site compliance review will assess the mission’s progress in implementing
the informal recommendations.

Informal Recommendation 1: Embassy Singapore should develop a representational plan for
the economic and political section that reflects section policy priorities and is allocated by
individual officer.

Informal Recommendation 2: Embassy Singapore should expand the economic assistant’s
political reporting responsibilities and update the position description accordingly.

Informal Recommendation 3: Embassy Singapore should issue an embassy notice with a
standard operating procedure for entering and updating records in the embassy’s contact
management database.

Informal Recommendation 4: Embassy Singapore should determine which of its current social
media sites best serve mission goals and implement a plan to focus its public diplomacy
resources on keeping those sites up to date.

Informal Recommendation 5: Embassy Singapore should review the position descriptions of
all drivers to ensure they include specific requirements for driving special vehicles and reflect
Government of Singapore requirements for licenses to drive such vehicles.




                                          31
                              SENSITIVE BUT UNCLASSIFIED
                           SENSITIVE BUT UNCLASSIFIED


Principal Officials
                                                             Name       Arrival Date
Ambassador                                           David Adelman             04/10
Deputy Chief of Mission                                Louis Mazel             07/10

Chiefs of Sections:
  Management                                          Susan Niblock           07/11
  Consular                                              Craig Bryant          09/11
  Economic/Political                                Joel Ehrendreich          07/09
  Public Affairs                                         Eric Watnik          08/11
  Regional Security                                   Greg Sherman            07/09

Other Agencies:
Department of Treasury                                 Seth Bleiweis          08/09
Department of Commerce
  Foreign Commercial Service                         Patrick Santillo         08/11
  Bureau of Industry and Security                     Donald Pearce           12/10
Department of Defense
  Defense Attaché Office                           Capt. John Wood            07/10
  Office of Defense Cooperation                  Col. Stephen Miller          07/11
  Office of Naval Research Global               Capt. Michael Smith           06/11
  Naval Medical Command                             Cdr. Gary Brice           11/07
Department of Justice
  Drug Enforcement Administration                     Russell Holske          07/05
  Federal Bureau of Investigation                      Cary Gleicher          02/11
Department of Transportation
  Federal Aviation Administration                      Mark Reeves            12/11
Department of Homeland Security
  Immigration and Customs Enforcement                      James Ink          08/08
  Customs and Border Protection                           Jeffrey Nii         04/07
  Transportation Security Administration                Kelly Hogan           07/11
  U.S. Coast Guard                          Lt. Cdr. Kenneth Phillips         06/10




                                       32
                           SENSITIVE BUT UNCLASSIFIED
                SENSITIVE BUT UNCLASSIFIED


Abbreviations
BBG             Broadcasting Board of Governors

DCM             Deputy Chief of Mission

Department      U.S. Department of State

ELO             Entry-level officer

FAM             Foreign Affairs Manual

ICASS           International Cooperative Administrative Support Services

LE              Locally employed

NSDD-38         National Security Decision Directive-38

OIG             Office of Inspector General

PAO             Public affairs officer




                            33
                SENSITIVE BUT UNCLASSIFIED
   SENSITIVE BUT UNCLASSIFIED




FRAUD, WASTE, ABUSE,
OR MISMANAGEMENT
of Federal programs hurts everyone.




           Contact the
   Office of Inspector General
          HOTLINE
to report illegal or wasteful activities:



             202-647-3320
             800-409-9926


         oighotline@state.gov


             oig.state.gov


      Office of Inspector General
       U.S. Department of State
            P.O. Box 9778
        Arlington, VA 22219




   SENSITIVE BUT UNCLASSIFIED
